                                CLOSEOUT FOR M-96110038

       On 6 November 1996, OIG received a copy of a letter' from a complainant2 in which
he expressed concerns about the general management and review of NSF proposals,
including his own. As an owner of a small business, the complainant claimed that NSF
discriminates against PIS who are similarly affiliated with small, non-academic organizations.
He claimed that this discrimination was the consequence of NSF's view that a "university
[was] the only place where basic (fundamental, important) research [was] ever possible."
OIG decided to review the complainant's most recent NSF proposals to determine if NSF had
evaluated them appropriately.

        OIG found the complainant had submitted six proposals to one NSF Program3 over
the last 3 years. Three of these proposals (#I, #2 and #3) were de~lined,~
                                                                        and three (#4, #5
and #6) were determined to be inappr~priate.~NSF informed the complainant of each of
these decisions in writing.

       The Declined Proposals (#I, #2. #3): All three proposals were reviewed according to
the NSF Program's guidelines, including external and panel reviews. In each case, the
panels, the external reviewers, and the Program agreed that the proposals should not be
fhded.

      The Inappropriate Proposals (#4. #5, #6): OIG determined that the Program reviewed
proposals #4, #5 and #6 according to the guidelines described in the relevant Program
~nnouncements.~  Each Announcement conveyed the same idea: that,"~p]roposalswill be




%e complain&t~submittedhis proposals over a 3-year period:

- N S F ~ ~NSF
 Program.
                             m
                                                                  -            Over this period the Program
 Announcement was revised three times. Consequently, one of three successive Program Announcements (NSF
                                  was in effect at the time the complainant submitted his proposals to the NSF



                                                Page 1 of 2
                            CLOSEOUT FOR M-96110038

screened to determine responsiveness to the specific requirements of the solicitation.
Proposals passing this screening will then be evaluated to determine the most promising
approaches." (NSF p a g e 12.) In each case, the NSF program officer determined that
the proposal did not pass the "screening," and, therefore, was considered inappropriate. OIG
noted that the Program Announcements for these six proposals specifically targeted small,
non-academic organizations and, in fact, contained guidelines restricting university
participation in these awards.

       OIG determined that the Program processed and reviewed the complainant's six
proposals according to the guidelines in the appropriate Program Announcements and that
there was no evidence of any bias against the complainant because of his affiliation with a
small, non-academic organization.

       This case is closed and no firther action will be taken.

cc: staff scientist, AIG-Oversight, legal, IG




                                          Page 2 of 2
